           AUDIT OF THE

   OFFICE OF JUSTICE PROGRAMS

     EDWARD BYRNE MEMORIAL

JUSTICE ASSISTANCE GRANT PROGRAM

      GRANT AWARDED TO THE

MUNICIPALITY OF ANCHORAGE, ALASKA



     U.S. Department of Justice

   Office of the Inspector General

            Audit Division



     Audit Report GR-90-13-001

           November 2012

                          AUDIT OF THE

                  OFFICE OF JUSTICE PROGRAMS

                    EDWARD BYRNE MEMORIAL

               JUSTICE ASSISTANCE GRANT PROGRAM

                     GRANT AWARDED TO THE

               MUNICIPALITY OF ANCHORAGE, ALASKA


                              EXECUTIVE SUMMARY


       The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of a $2,700,337 Edward Byrne
Memorial Justice Assistance Grant Program (JAG) grant (2009-SB-B9-1238)
that the Office of Justice Programs (OJP), Bureau of Justice Assistance
awarded to the Municipality of Anchorage, Alaska (Anchorage). 1 Grant
2009-SB-B9-1238 was funded by the American Recovery and Reinvestment
Act of 2009 (Recovery Act). Anchorage utilized the grant to fund: a mobile
data computer infrastructure system rehabilitation project, police officer
overtime for the Downtown “Foot Patrol” Enforcement Project (Foot Patrol
Project) and the Zero Tolerance Patrol Enforcement Project (Zero Tolerance
Project), overtime for the Grant Administrator, and the Methamphetamine
Education Coordinator (Meth Coordinator) position. 2 In addition, the grant
funded a prosecutor position and the installation of a legal file tracking
system. The ultimate goal of the grant was to: (1) upgrade an aging
dispatch and records system, (2) fund the Foot Patrol and Zero Tolerance
Projects, and (3) provide substance abuse prevention services. Anchorage
officials advised OJP that without the JAG grant, these projects would have
otherwise been abandoned due to local budget constraints. As of September
2012, Anchorage had drawn down $972,786 (36 percent) of the grant
award.

       1
         The JAG grant was awarded to the Municipality of Anchorage and was administered
by the Anchorage Police Department. For uniformity, we refer to the grantee as Anchorage
throughout the report, unless stated otherwise.
       2
           Mobile data computer infrastructure system rehabilitation project includes repairs
and upgrades to the existing Computer Aided Dispatch system and associated components.
According to Anchorage, these repairs and upgrades are intended to expand system
coverage, increase system speed and reliability, and improve its officers’ efficiency in the
field. The Foot Patrol Project provides additional police patrols in Anchorage’s downtown
business district to address gang activity and inebriated homeless individuals during the
summer months. The Zero Tolerance Project provides additional police patrols to a high
crime area outside of Anchorage’s downtown business district. The Meth Coordinator
facilitates and promotes substance abuse prevention education within Alaskan communities.
This includes education efforts within the municipality as well as collaboration with statewide
organizations, and focuses on reducing Methamphetamine use.
        The purpose of the Bureau of Justice Assistance’s JAG Formula
Program is to enable states, tribes, and local governments to support a
broad range of activities to prevent and control crime based on their own
local needs and conditions. JAG funds may be used for state and local
initiatives, technical assistance, training, personnel, equipment, supplies,
contractual support, information systems for criminal justice, and criminal
justice-related research and evaluation activities that will improve or
enhance the following purpose areas:

      •   Law enforcement programs;

      •   Prosecution and court programs;

      •   Prevention and education programs;

      •   Corrections and community corrections programs;

      •   Drug treatment and enforcement programs;

      •   Planning, evaluation, and technology improvement programs; and

      •   Crime victim and witness programs (other than compensation).

Recovery Act

      On February 17, 2009, the President signed into law the Recovery Act.
The purposes of the Recovery Act were to: (1) preserve and create jobs and
promote economic recovery; (2) assist those most impacted by the
recession; (3) provide investments needed to increase economic efficiency
by spurring technological advances in science and health; (4) invest in
transportation, environmental protection, and other infrastructure that will
provide long term economic benefits; and (5) stabilize state and local
government budgets in order to minimize and avoid reductions in essential
services and counterproductive state and local tax increases.

       The Recovery Act provided $787 billion to stimulate the economy. The
Department of Justice received $4 billion in Recovery Act funds and
$2 billion of that funding was made available through the Bureau of Justice
Assistance’s JAG Program. Through Recovery Act JAG funding, the
Department of Justice focused support on all components of the criminal
justice system, including multijurisdictional drug and gang task forces; crime
prevention and domestic violence programs; and courts, corrections,
treatment, and justice information sharing initiatives. Recovery Act JAG
funded projects could address crime by providing services directly to

                                     - ii ­
individuals and communities and by improving the effectiveness and
efficiency of criminal justice systems, processes, and procedures.

OIG Audit Results

      The purpose of our audit was to determine whether costs claimed
under Grant 2009-SB-B9-1238 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, indirect costs, matching, budget management, and post
end date activity were not applicable to this grant.

       We generally found non-personnel expenditures were accurate,
reasonable, and properly classified. Additionally, Anchorage’s oversight of
its contractors was adequate and it submitted accurate financial reports to
OJP in a timely manner. However, we noted the following exceptions which
resulted in total net questioned costs of $149,583:

     •	 Anchorage’s internal controls were inadequate to safeguard assets,
        support labor charges, or accurately record grant-related overtime;

     •	 $83,774 in salaries and fringe benefits expenditures lacked
        adequate support;

     •	 There were indications that Anchorage supplanted rather than
        supplemented local funding by charging the grant $64,529 for
        overtime salary and fringe benefit expenditures;

     •	 $1,484 in fringe benefit charges were incorrectly computed;

     •	 Overtime expenditures were inaccurately recorded;

     •	 Three of five Progress Reports and six of seven Recovery Act
        reports were inaccurate;

     •	 Anchorage failed to submit an approved Equal Employment
        Opportunity Plan to OJP, as required; and


                                   - iii ­
     •	 Anchorage failed to collect and maintain data necessary for
        measuring grant performance.

      As a result of our audit, we questioned $149,583 and made
13 recommendations to OJP. Our findings are discussed in detail in the
Findings and Recommendations section of this report. Our audit objective,
scope, and methodology are discussed in Appendix I. Our Schedule of
Dollar-Related Findings is located in Appendix II.

      We discussed the results of our audit with Anchorage officials and have
included their comments in the report as applicable. In addition, we
requested from Anchorage and OJP written responses to a draft copy of our
audit report. We received those responses and they are found in
Appendices III and IV, respectively. Our analysis of those responses and the
status of the recommendations are found in Appendix V.




                                    - iv ­
                               TABLE OF CONTENTS




INTRODUCTION………………………………………………………………………..1

      Recovery Act ...............................................................................2

      Background .................................................................................3

      OIG Audit Approach......................................................................4

FINDINGS AND RECOMMENDATIONS.................................................6

      Internal Control Environment.........................................................6

      Drawdowns .................................................................................9

      Expenditures ............................................................................. 10

      Monitoring of Sub-Recipients and Contractors ................................ 14

      Reports..................................................................................... 16

      Additional Award Requirements.................................................... 21

      Program Performance and Accomplishments.................................. 25

      Conclusion................................................................................. 26

      Recommendations ...................................................................... 27


APPENDICES:

I.    OBJECTIVE, SCOPE, AND METHODOLOGY ................................29

II.   SCHEDULE OF DOLLAR-RELATED FINDINGS ............................31

III. GRANTEE RESPONSE ...............................................................32

IV.   DEPARTMENT OF JUSTICE RESPONSE......................................37

V.	   OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

        OF ACTIONS NECESSARY TO CLOSE THE REPORT ................41

                          AUDIT OF THE

                  OFFICE OF JUSTICE PROGRAMS

                    EDWARD BYRNE MEMORIAL

               JUSTICE ASSISTANCE GRANT PROGRAM

                     GRANT AWARDED TO THE

               MUNICIPALITY OF ANCHORAGE, ALASKA


                                   INTRODUCTION


       The U.S. Department of Justice Office of the Inspector General (OIG),
Audit Division, has completed an audit of a $2,700,337 Edward Byrne
Memorial Justice Assistance Grant Program (JAG) grant (2009-SB-B9-1238)
that the Office of Justice Programs (OJP), Bureau of Justice Assistance
awarded to the Municipality of Anchorage, Alaska (Anchorage). 1
Grant 2009-SB-B9-1238 was funded by the American Recovery and
Reinvestment Act of 2009 (Recovery Act). Anchorage utilized the grant to
fund: a mobile data computer infrastructure system rehabilitation project,
police officer overtime for the Downtown “Foot Patrol” Enforcement Project
(Foot Patrol Project) and the Zero Tolerance Patrol Enforcement Project
(Zero Tolerance Project), overtime for the Grant Administrator, and the
Methamphetamine Education Coordinator (Meth Coordinator) position. 2 In
addition, the grant funded a prosecutor position and the installation of a
legal file tracking system. The ultimate goal of the grant was to:
(1) upgrade an aging dispatch and records system, (2) fund the Foot Patrol
and Zero Tolerance Projects, and (3) provide substance abuse prevention
services. Anchorage advised OJP that without the JAG grant, these projects
would have otherwise been abandoned due to local budget constraints. As
of September 2012, Anchorage had drawn down $972,786 (36 percent) of
the grant award.

       1
         The JAG grant was awarded to the Municipality of Anchorage and was administered
by the Anchorage Police Department. For uniformity, we refer to the grantee as Anchorage
throughout the report, unless stated otherwise.
       2
           Mobile data computer infrastructure system rehabilitation project includes repairs
and upgrades to the existing Computer Aided Dispatch system and associated components.
According to Anchorage, these repairs and upgrades are intended to expand system
coverage, increase system speed and reliability, and improve its officers’ efficiency in the
field. The Foot Patrol Project provides additional police patrols in Anchorage’s downtown
business district to address gang activity and inebriated homeless individuals during the
summer months. The Zero Tolerance Project provides additional police patrols to a high
crime area outside of Anchorage’s downtown business district. The Meth Coordinator
facilitates and promotes substance abuse prevention education within Alaskan communities.
This includes education efforts within the municipality as well as collaboration with statewide
organizations, and focuses on reducing Methamphetamine use.
                                       EXHIBIT 1

         RECOVERY ACT JAG GRANT AWARDED TO ANCHORAGE

      GRANT AWARD       AWARD      AWARD
        NUMBER        START DATE  END DATE 3  AWARD AMOUNT
    2009-SB-B9-1238              03/01/09           02/28/13          $2,700,337
  Source: OJP

      The purpose of our audit was to determine whether costs claimed
under Grant 2009-SB-B9-1238 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, indirect costs, matching, budget management, and post
end date activity were not applicable to this grant.

Recovery Act

      On February 17, 2009, the President signed into law the Recovery Act.
The purposes of the Recovery Act were to: (1) preserve and create jobs and
promote economic recovery; (2) assist those most impacted by the
recession; (3) provide investments needed to increase economic efficiency
by spurring technological advances in science and health; (4) invest in
transportation, environmental protection, and other infrastructure that will
provide long term economic benefits; and (5) stabilize state and local
government budgets in order to minimize and avoid reductions in essential
services and counterproductive state and local tax increases.

       The Recovery Act provided $787 billion to stimulate the economy. The
Department of Justice received $4 billion in Recovery Act funds and
$2 billion of that funding was made available through the Bureau of Justice
Assistance’s (BJA) JAG Program. Through Recovery Act JAG funding, the
Department of Justice focused support on all components of the criminal
justice system, including multijurisdictional drug and gang task forces; crime
prevention and domestic violence programs; and courts, corrections,
treatment, and justice information sharing initiatives. Recovery Act JAG
funded projects could address crime by providing services directly to


      3
          The Award End Date includes all time extensions that were approved by OJP.

                                           -2 ­
individuals and communities and by improving the effectiveness and
efficiency of criminal justice systems, processes, and procedures.

Background

      The Municipality of Anchorage stretches from Portage Glacier to
Eklutna along the Cook Inlet in South-central Alaska, encompassing an area
roughly the size of the state of Delaware. With an estimated population of
291,826 in 2010, Anchorage is Alaska’s largest city. According to the
Anchorage Police Department’s (APD) 2010 annual statistical report, there
were 3,177 instances of person crimes, and 3,065 instances of property
crimes. 4

      OJP’s mission is to increase public safety and improve the fair
administration of justice through innovative leadership and programs.
Specifically, BJA provides leadership and assistance to local criminal justice
programs that improve and reinforce the nation’s criminal justice system.
The BJA’s overall goals are to: (1) reduce and prevent crime, violence, and
drug abuse; and (2) improve the way in which the criminal justice system
functions.

       The BJA’s JAG Program is the primary provider of federal criminal
justice funding to state and local jurisdictions. The purpose of the program
is to enable states, tribes, and local governments to support a broad range
of activities to prevent and control crime based on their own local needs and
conditions. JAG funds may be used for state and local initiatives, technical
assistance, training, personnel, equipment, supplies, contractual support,
information systems for criminal justice, and criminal justice-related
research and evaluation activities that will improve or enhance the following
purpose areas:

       •   Law enforcement programs;

       •   Prosecution and court programs;

       •   Prevention and education programs;

       •   Corrections and community corrections programs;

       •   Drug treatment and enforcement programs;

       4
          Person crimes include non-negligent murder, negligent manslaughter, rape,
aggravated assault, and simple assault. Property crimes are robbery, burglary, theft, stolen
vehicle, arson, forgery and counterfeiting, fraud and embezzlement, stolen property, and
criminal mischief (vandalism).

                                            -3 ­
      •	 Planning, evaluation, and technology improvement programs; and

      •	 Crime victim and witness programs (other than compensation).

       The amount of JAG funding to be offered to state and local
governments is determined through a statutory JAG formula. OJP then
publishes the formula-based award amounts for state and local governments
in the JAG allocation list, established by the Bureau of Justice Statistics,
which indicates the amount of funds for which each unit of local government
is eligible to apply. Based on Anchorage’s grant application, Anchorage
applied to receive assistance for the purpose of enhancing multiple program
areas including: law enforcement; prevention and education; and planning,
evaluation, and technology improvements.

OIG Audit Approach

      We tested Anchorage’s compliance with what we consider to be the
most important conditions of the grant award. Unless otherwise stated in
our report, the criteria we audited against are contained in the OJP Financial
Guide, grant award documents, Code of Federal Regulations (C.F.R.), Office
of Management and Budget (OMB) Circulars, and the Recovery Act.
Specifically, we tested:

      •	 Internal Control Environment – to determine whether the
         internal controls in place for the processing and payment of funds
         were adequate to safeguard the funds awarded to Anchorage and
         ensure compliance with the terms and conditions of the grant.

      •	 Drawdowns – to determine whether drawdowns were adequately
         supported and if Anchorage was managing grant receipts in
         accordance with federal requirements.

      •	 Expenditures – to determine whether costs charged to the grant,
         including payroll and fringe benefits were accurate, adequately
         supported, allowable, reasonable, and allocable.

      •	 Reporting – to determine if the required financial, programmatic,
         and Recovery Act reports were submitted on time and accurately
         reflected grant activity.

      •	 Award Requirements – to determine whether Anchorage
         complied with grant award guidelines, special conditions, and
         solicitation criteria.


                                     -4 ­
     •	 Program Performance and Accomplishments – to determine
        whether Anchorage made a reasonable effort to accomplish stated
        objectives.

     •	 Monitoring of Sub-Recipients and Contractors – to determine if
        Anchorage provided adequate oversight and monitoring of its sub-
        recipients and contractors.

      The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. Our audit objective, scope, and
methodology are discussed in Appendix I. Our Schedule of Dollar-Related
Findings is located in Appendix II.

      We discussed the results of our audit with Anchorage officials and have
included their comments in the report, as applicable. In addition, we
requested from Anchorage and OJP written responses to a draft copy of our
audit report.




                                    -5 ­
                  FINDINGS AND RECOMMENDATIONS

              We found that Anchorage did not consistently
              maintain timecards for one employee, overtime slips
              were incomplete, and fringe benefit charges were
              inaccurate. Therefore, we questioned $83,774 in
              salaries and fringe benefits, and $1,484 of fringe
              benefit expenses which were not computed correctly.
              Furthermore, we found that Anchorage’s internal
              controls did not provide for effective control to
              safeguard assets, adequate support of labor charges,
              or accurate recording of grant-related overtime.
              Additionally, we found three of five Progress Reports
              and six of the seven Recovery Act reports submitted
              were inaccurate. We also found that Anchorage
              failed to submit to OJP an approved Equal
              Employment Opportunity Plan, as required by the
              grant award. We also found indications that
              Anchorage used grant funds to supplant, rather than
              supplement, local funding that it regularly budgeted
              for overtime. As a result, we questioned $64,529 in
              federal grant funds expended on overtime. Lastly,
              Anchorage failed to collect and maintain data
              necessary for measuring grant performance. As a
              result, we questioned a total of $149,583 and made
              13 recommendations. 5

Internal Control Environment

       We reviewed Anchorage’s Single Audit Report and financial
management system to assess the municipality’s risk of noncompliance with
laws, regulations, guidelines, and terms and conditions of the grant. We
also interviewed Anchorage’s grant management, and individuals from its
accounting and finance departments regarding internal controls and
processes related to payroll and accounts payable functions.




       5
        The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of questioned
costs.

                                             -6 ­
Single Audit

       According to OMB Circular A-133, non-federal entities that expend
$500,000 or more in federal awards in a year shall have a Single Audit
conducted. We reviewed Anchorage’s most recent Single Audit for the Fiscal
Year (FY) ending December 31, 2010.6 We found that the independent
auditors had issued an unqualified opinion without noting any material
internal control weaknesses, deficiencies, or findings directly related to
Department of Justice grants. However, we noted one finding related to
five timecards that were not appropriately approved under a Department of
Transportation funded grant. We also noted that this was not considered a
material weakness and the grantee provided a corrective action plan;
therefore, we did not consider it to represent a significant increase in risk as
related to our audit.

Financial Management System

        The OJP Financial Guide requires that all grant fund recipients
“. . . establish and maintain adequate accounting systems and financial
records to accurately account for funds awarded to them.” Further, the
accounting system should provide adequate maintenance of financial data to
enable planning, control, and measurement. The guide also requires that
grantees separately account for each award and not commingle grant funds.

       Anchorage utilizes PeopleSoft accounting software to record grant
transactions. Based on our overall review of grant-related transactions that
were recorded in Anchorage’s accounting records, we found that, in general,
the system accurately identified and accounted for grant-related
expenditures. However, during our review of policies and procedures, we
identified internal control weaknesses relating to Anchorage’s receiving
function, payroll process, and procedures for allocating overtime.

Receiving

     Title 28 C.F.R. Part 66, Uniform Administrative Requirements for
Grants and Cooperative Agreements to State and Local Governments
(formerly known as OMB Circular A-102), requires that effective control and
accountability be maintained for all grant cash, real and personal property,
and other assets. Grantees must adequately safeguard all such property
and must assure that it is used solely for authorized purposes. We reviewed
Anchorage’s guidance for handling of purchases and observed its receiving
process. Based on our observations, we noted the following weaknesses:

      6
          Anchorage’s fiscal year is from January 1 through December 31.

                                           -7 ­
      •	 the same individual that issued purchase requests also received
         assets in the accounting system;

      •	 the same individual that performed physical verification and
         inventory of assets also could reconcile the inventory; and

      •	 based on Anchorage’s lack of adequate access controls to its
         inventory room, grant-purchased assets would not be adequately
         safeguarded against theft and misuse.

      These issues demonstrate a lack of adequate segregation of duties and
safeguarding of assets. We discussed the above internal control weaknesses
with Anchorage officials and they acknowledged that these issues exist. An
Anchorage official explained that budget restrictions have resulted in the loss
of personnel, which has contributed to some of the weaknesses noted above.
In response to our concern regarding the segregation of duties when
receiving goods, Anchorage indicated that it plans to implement a new
accounting module with user-level permission controls, which would allow
them to address our concerns. For example, Anchorage confirmed the
system would require receipt and purchase of goods be performed by
separate individuals. Anchorage estimates the transition from PeopleSoft to
SAP will be complete by the end of 2012. We recommend that OJP ensure
Anchorage strengthens its internal controls to make certain that asset
recording and inventory duties are adequately segregated and grant-related
assets are adequately safeguarded.

Payroll

       According to 2 C.F.R. Part 225, Cost Principles for State, Local and
Indian Tribal Governments, (formerly known as OMB Circular A-87),
employees working solely on a single federal award or cost objective, must
support charges for their salaries with periodic certifications that the
employees worked solely on that program for the period covered by the
certification. These certifications must be prepared at least semi-annually
and signed by the employee and the supervisory official having firsthand
knowledge of the work performed by the employee.

       We discussed our concerns with Anchorage officials who explained that
its Meth Coordinator position was considered an “executive” position, and
according to Anchorage’s policy, executive personnel were not required to
submit time cards. The requirement in 2 C.F.R. Part 225 makes no
distinction as to who is required to adhere to the certification rules, whether
executive personnel or non-executive personnel. Therefore, Anchorage’s
Meth Coordinator and the respective supervisor were responsible for

                                     -8 ­
preparing and submitting certifications. We recommend that OJP ensure
Anchorage strengthens its internal controls to make certain its employees
and respective supervisors properly certify the time that is charged to the
grant.

Overtime Allocation

       As discussed above, the OJP Financial Guide requires that grantees
establish and maintain adequate accounting systems and financial records to
accurately account for funds awarded to them. Further, the guide states
that the accounting system should provide adequate maintenance of
financial data to enable planning, control, and measurement. We found that
Anchorage did not have a formal written procedure for allocating overtime to
the grant. Instead, Anchorage relied on an unwritten practice, which
included the grant manager tabulating overtime hours from police officer’s
overtime slips. In addition, the grant manager calculated the fringe benefit
costs and then provided the information to the grant accountant who
reclassified the overtime expenditures from Anchorage’s general fund to the
grant account. However, since the allocation method was not performed
using data from the official accounting system, we found discrepancies in the
overtime and fringe benefit charges. For example, we found that work
performed on the Zero Tolerance and Foot Patrol Projects between May and
August of 2009 was reclassified to the grant in October 2009. We also found
data entry errors and inaccurate fringe benefit cost calculations. We discuss
these discrepancies in more detail in the Payroll and Reporting sections of
this report.

      We discussed these issues with Anchorage officials who stated that a
new timekeeping system has been implemented by APD as of December
2011. The Grant Manager stated that the new software provides for
employee entry and coding of grant related time into the system thereby
eliminating the need for reclassification of grant expenditures. We
recommend that OJP ensure that Anchorage strengthens its allocation
procedures to make certain that overtime expenditures are accurately and in
a timely manner charged to the grant.

Drawdowns

      According to the grant solicitation, Anchorage was allowed to draw
down the entire grant award amount. We found that Anchorage was
drawing down grant funds on a reimbursement basis. On March 12, 2010,
Anchorage made its initial drawdown of grant funds in the amount
of $191,471. Subsequently, Anchorage made three more drawdowns. We
found, as shown in Exhibit 2, that all four drawdowns were made on a

                                     -9 ­
reimbursement basis. Additionally, as of May 30, 2011, there was
$2,421,643 in grant funds that were available for Anchorage to draw down.

                                  EXHIBIT 2

                            DRAWDOWN HISTORY FOR

                             GRANT 2009-SB-B9-1238

   DATE OF     AMOUNT       CUMULATIVE       GRANT         CUMULATIVE     CUMULATIVE
 DRAWDOWN      DRAWN        DRAWDOWNS     EXPENDITURES    EXPENDITURES    DIFFERENCES
   03/12/10    $ 191,471      $ 191,471       $ 207,979      $ 207,979      <$16,508>
   05/25/10       23,529        215,000          18,832         226,811    < 11,811>
   12/23/10       45,071        260,071          50,864         277,675    < 17,604>
  03/08/11        18,623        278,694           1,019         278,694            0
Source: Anchorage and OJP

Expenditures

       As of May 2, 2011, Anchorage expended $329,059 of the grant
according to its accounting records. The expenditures were comprised of
salaries, fringe benefits, travel, and other direct costs. In our testing of the
salary and fringe benefit costs, we selected a judgmental sample of two non­
consecutive pay periods for the Meth Coordinator and a separate judgmental
sample for overtime. We tested the selected payroll transactions to verify
that salaries and fringe benefit costs were accurate, adequately supported,
and reasonable. We describe the results of our payroll testing below.
Besides payroll, there were a total of 24 non-payroll transactions, totaling
$55,972. We selected and tested all 24 transactions. When conducting our
transaction testing of expenditures, we reviewed supporting documentation
(payment vouchers, invoices, and check copies for each of the transactions.
We found that all of the non-personnel expenditures reviewed were
accurate, reasonable, and properly classified as grant-related expenditures.

Payroll

       Anchorage utilized the grant to fund: its Meth Coordinator position, its
Grant Manager’s overtime and fringe benefits, and the overtime of the police
officers that conducted patrols in Anchorage’s downtown and high crime
areas. According to Anchorage’s budget narrative in its grant application a
total of $368,366 was planned to be expended for grant-related personnel
expenses (salaries and fringe benefits).

      We judgmentally selected two non-consecutive pay periods to test the
Meth Coordinator’s salary and fringe benefit expenses. As part of our
testing, we attempted to determine whether: (1) the Meth Coordinator’s
salary was reasonable, and (2) Anchorage accurately computed, properly

                                     - 10 ­
authorized, accurately recorded, and properly allocated to the grant the
Meth Coordinator’s salary and fringe benefits. We did not test fringe
benefits to determine whether it was in accordance with the grant’s budget,
as Anchorage was not required to notify OJP of changes to the grant’s
budget provided that the expenditures remained within the scope of the
BJA-approved purpose areas.

       We obtained a list of employees paid using grant funds. The only
employee’s salary paid with grant funds was the Meth Coordinator. We
tested the reasonableness of the Meth Coordinator’s salary, which included
making a comparison between her salary and the salary for a related
position in the Anchorage area. Based on our review, we found that the
Meth Coordinator’s salary was reasonable. Furthermore, we traced the
associated fringe benefits that were charged to the grant to source
documents and determined that these expenditures were adequately
supported.

       The OJP Financial Guide specifically states that payroll records shall
include the time and attendance reports for all individuals reimbursed under
the award. In addition, 2 C.F.R. Part 225, Cost Principles for State, Local,
and Indian Tribal Governments states that charges to federal awards for
salaries and wages will be based on documented payrolls approved by a
responsible official. Further, 2 C.F.R. Part 225 states that “where employees
work on multiple activities or cost objectives, a distribution of their salaries
or wages will be supported by personnel activity reports or equivalent
documentation . . .” However, if an employee’s time is completely devoted
to the grant, 2 C.F.R. Part 225, Cost Principles for State, Local, and Indian
Tribal Governments states:

            . . . where employees are expected to work solely on
            a single Federal award or cost objective, charges for
            their salaries and wages will be supported by
            periodic certifications that the employees worked
            solely on that program for the period covered by the
            certification. These certifications will be prepared at
            least semi-annually and will be signed by the
            employee or supervisory official having first-hand
            knowledge of the work performed by the employee.

      Based on these criteria, we reviewed Anchorage’s payroll records and
the Meth Coordinator’s timecards. Anchorage provided to us only five bi­
weekly timecards for the 2-year period that the Meth Coordinator’s salaries
and fringe benefits were charged to the grant. As a result, 34 timecards for
this position did not exist. We asked Anchorage officials why they did not

                                     - 11 ­
maintain timecards for all of the pay periods. Anchorage officials stated that
municipal policy did not require employees hired under the “Executive” work
group, which included the Meth Coordinator position, to prepare and submit
timecards.

       Based on our review of the Meth Coordinator’s personnel file and time
and attendance report, we determined that between December 2009 and
December 2010, 100 percent of the Meth Coordinator’s salary was allocated
to the grant. Besides the five bi-weekly timecards, there were no other
certifications for the Meth Coordinator that supported her working solely on
the grant program as required by 2 C.F.R. Part 225.

      We tested the Meth Coordinator’s five timecards and identified the
following:

      •	 Anchorage properly completed and authorized timecards for two
         pay periods (August 17 to 30, 2009, and August 31 to
         September 13, 2009);

      •	 Anchorage failed to properly authorize (lacked supervisory
         signatures) timecards for two pay periods (September 14 to 27,
         2009, and September 28 to October 11, 2009); and

      •	 Anchorage properly authorized and accurately recorded the
         timecard for one pay period (November 8 to 21, 2010), but it failed
         to provide a description regarding the work that was performed,
         which would identify whether or not the work was grant-related.

      As a result, three of the five timecards were incomplete. Based on
Anchorage’s failure to maintain 34 timecards for its Meth Coordinator and
the incomplete nature of the three of the five timecards that it maintained,
we questioned $83,531 in payroll expenses (salary and fringe benefits) that
were inadequately supported. We also recommend that OJP ensure
Anchorage maintains adequate support for its grant-funded employees’
payroll expenses.

       In addition to the Meth Coordinator’s timesheets, we reviewed 28 of
Anchorage’s police officers’ overtime slips. We found that some police
officers’ overtime slips were lacking employee signatures, supervisory
signatures, descriptions of the work performed, or the shift start and end
times. According to 2 C.F.R. Part 225, Cost Principles for State, Local, and
Indian Tribal Governments, “. . . where employees work on multiple
activities or cost objectives, a distribution of their salaries or wages will be
supported by personnel activity reports or equivalent documentation . . .”

                                      - 12 ­
Therefore, we questioned $243 in overtime costs that were improperly
authorized or lacking a supervisory signature. The remaining overtime costs
tested were adequately supported. As a result, the total questioned cost in
payroll expenses was $83,774.

       The OJP Financial Guide specifically states that “the recipient is
responsible for establishing and maintaining an adequate system of
accounting . . .” that “. . . presents and classifies projected historical cost of
the grant as required for budgetary and evaluation purpose.” Anchorage
charged grant-related overtime accrued by its police officers and grant
manager to the police department’s operating (or general) fund.
Afterwards, Anchorage manually re-classified grant-related overtime charges
to the grant account through correcting journal entries. Anchorage provided
us with support for its correcting journal entries and we traced the overtime
charges to the source documents (overtime slips). We identified eight
instances of vague handwritten descriptions on the overtime slips that were
prepared by Anchorage’s police officers. As a result, we were unable to
ascertain whether the police officers had worked on grant-related activities.
When Anchorage’s Payroll Department manually posted the overtime journal
entries to the grant account, it relied on the overtime slips that contained
vague, handwritten descriptions of the work performed. Anchorage’s Grant
Manager explained that as of December 2011, APD converted from a manual
time-keeping system to an electronic time-keeping system, in which each
APD employee electronically selects the correct project code to which their
time should be charged. The Grant Manager anticipates that the conversion
will result in employees entering time data directly into the system and
thereby eliminate vague handwritten descriptions as well as any potential
data entry errors resulting from staff misinterpreting vague hand-written
descriptions. We recommend that OJP ensure Anchorage establishes a
process to accurately record grant-related overtime costs in its accounting
system.

Fringe Benefits

      According to 2 C.F.R. Part 225, Cost Principles for State, Local, and
Indian Tribal Governments:

            [t]he cost of fringe benefits in the form of employer
            contributions or expenses for social security;
            employee life, health, unemployment, and worker's
            compensation insurance . . .; pension plan costs . .
            .; and other similar benefits are allowable, provided
            such benefits are granted under established written
            policies. Such benefits, whether treated as indirect

                                      - 13 ­
            costs or as direct costs, shall be allocated to Federal
            awards and all other activities in a manner consistent
            with the pattern of benefits attributable to the
            individuals or group(s) of employees whose salaries
            and wages are chargeable to such Federal awards
            and other activities.

            The costs of fringe benefits are allowable to the
            extent that the benefits are reasonable and are
            required by law, governmental unit-employee
            agreement, or an established policy of the
            governmental unit.

      We tested two non-consecutive payroll periods worth of fringe benefits
related to Anchorage’s Meth Coordinator. As a result, we identified
calculation and data entry errors in the overtime expenditures that
Anchorage charged to the grant. Therefore, we expanded our testing of
overtime related fringe benefits to 100 percent of what was charged to the
grant. We traced the fringe benefit charges to source documents and
determined that these expenditures were reasonable and adequately
supported; however, we found that the charges were not computed
correctly. Specifically, fringe benefits that related to the Meth Coordinator,
police officers, and Grant Manager were overstated by a net total of $1,484,
which we questioned. Anchorage officials stated that the computational
discrepancies were caused by data entry errors, software limitations, and the
use of incorrect fringe benefit rates. We recommend that OJP ensure
Anchorage establishes appropriate procedures and internal controls to make
certain that fringe benefit expenses are accurately recorded in its accounting
system.

Monitoring of Sub-Recipients and Contractors

      Based on our analysis of Anchorage’s grant accounting records as well
as statements from the Grant Manager, we determined that Anchorage had
no sub-recipients. However, as of our fieldwork in May 2011, Anchorage
entered into two contracts that were funded by the Recovery Act JAG grant.

        An official from Anchorage’s Information Technology Department
stated that the purpose of the first contract was to install the legal file
tracking system, in order to increase the efficiency of retrieving legal files.
This first contract was above $100,000 and it was a sole source contract.
Anchorage officials explained that they entered into a sole source contract
with a vendor because it was the only company that could provide all of the
file tracking capabilities the Legal Department sought. However, Anchorage

                                     - 14 ­
did not obtain pre-approval from OJP to enter into a sole source contract
valued above $100,000, as required. The OJP Financial Guide states that:
“[a]ll sole-source procurements in excess of $100,000 must receive prior
approval from the awarding agency.” Anchorage’s Purchasing Officer stated
that Anchorage’s Purchasing Department had obtained approval from the
Anchorage Assembly to proceed with the sole source contract and the
Purchasing Department confirmed that the vendor was not included on the
federal “No Buy” list. Despite following these internal procedures,
Anchorage overlooked the requirement to request federal pre-approval
before signing the contract. After we identified this issue and brought it to
the attention of Anchorage’s Grant Manager, he submitted a request to OJP
seeking retroactive approval for the sole source contract. OJP retroactively
approved the request and issued a Grant Adjustment Notice to formally
document its decision.

       To complete another element of the legal file tracking system,
installation of cables, Anchorage’s Legal Department decided to use a local
company for its second contract. Documentation provided by Anchorage
showed that this contract was less than the $100,000 threshold and was
awarded based on a competitive bidding process. In reviewing the details of
this contract we found that Anchorage complied with its internal
procurement policies.

      Title 28 C.F.R. § 66.36 requires that grantees “maintain a contract
administration system which ensures that contractors perform in accordance
with terms, conditions, and specifications of their contracts or purchase
orders.” The OJP Financial Guide states that grantees are required to
“…ensure that monitoring of organizations under contract to them is
performed in a manner that will ensure compliance with their overall
financial management requirements.” In addition, Anchorage’s procurement
policy states: “[a]fter award of the contract and during performance of the
work, the Municipal agency contract administrator will review and examine
each contractor invoice or billing to determine if each charge or billing meets
the test of being reasonable, lawful and allowable before approving for
payment.” Furthermore, Anchorage’s Municipal codes on procurement
states: “[t]he using agency shall administer all contracts for supplies,
services or professional services…”

      According to an official with Anchorage’s Legal Department, she used
the “Scope of Services” from the first contract to keep track of the
contractor’s performance and progress on the contract. Further, she stated
that the equipment and services were delivered on time. We reviewed the
“Scope of Services” for the first contract and noted that it listed in detail
deliverables such as steps for setting up and configuring the hardware and

                                    - 15 ­
software as well as the quantity and cost of the hardware and
implementation of services. This same Anchorage official also stated that
she has been monitoring the progress of the work being performed by the
contractors for the second contract and she knows what work has been
performed.

      Further, a finance person at the Legal Department reviewed the
purchase orders and invoices before submitting them to Anchorage’s Office
of Management and Budget for payment approval. We asked an official from
Anchorage’s Legal Department whether any evaluations were performed on
the contractors’ financial management systems as well as processes and
procedures for administering the contracts and adhering to the grant’s terms
and conditions. The official stated that the Legal Department has not
evaluated the contractors’ financial management systems or the contractors’
processes and procedures for administering the contracts. However, the
same official stated that she has worked closely with the contractors and
therefore she has first-hand knowledge of whether or not the contractors
have been adhering to the grant’s terms and conditions.

      We asked an official from Anchorage’s Legal Department whether she
or anyone else at the Legal Department performed any type of reviews or
on-site visits to the contractors, including telephone reviews. The official
stated that no one at the Legal Department has performed any on-site
review of the contractor. However, she conducts frequent telephonic
meetings with the contractor to discuss the progress of the project.

      Based on our review of the contract file and our discussion with
Anchorage officials, we determined that Anchorage’s review of contractors’
performance appeared adequate to satisfactorily evaluate the contractors’
adherence to the requirements of the contracts.

Reports

      According to the OJP Financial Guide, award recipients are required to
submit both quarterly Federal Financial Reports (FFR) and quarterly Progress
Reports. Moreover, since this was a Recovery Act grant, Anchorage was also
required to submit quarterly Recovery Act reports. These reports describe
the status of the funds, compare actual accomplishments to the objectives of
the grant, and report other pertinent information. We reviewed the FFRs,
Progress Reports, and quarterly Recovery Act reports submitted by
Anchorage to determine whether each report was accurate and submitted in
a timely manner.



                                    - 16 ­
Federal Financial Reports

       According to the requirements of the award, quarterly FFRs are due no
later than 30 days after the end of the quarter, with the final FFR due within
90 days after the end date of the award. 7 We reviewed the last four FFRs
submitted for the grant to determine if Anchorage submitted these reports on
time. We found that Anchorage submitted all four reports in a timely manner.

                                        EXHIBIT 3

                   FEDERAL FINANCIAL REPORT HISTORY FOR

                             GRANT 2009-SB-B9-1238

 REPORT             REPORTING           REPORT        DATE                         DAYS
  NO .               PERIOD            DUE DATE     SUBMITTED                      LATE
   6            04/01/10 - 06/30/10    07/30/10      07/13/10                       0
   7            07/01/10 - 09/30/10    10/30/10      10/25/10                       0
   8            10/01/10 - 12/31/10    01/30/11      01/22/11                       0
   9            01/01/11 - 03/31/11    04/30/11      04/29/11                       0
Source: Anchorage and OJP

      We also reviewed the four most recent FFRs when we began our audit
to determine whether the reports contained accurate information related to
actual expenditures for the award. The OJP Financial Guide requires that
FFRs contain the actual expenditures and unliquidated obligations as
incurred for the reporting period and cumulative for the award. The award
recipients must report program outlays and revenue on a cash or accrual
basis in accordance with their accounting system. As shown in Exhibit 4, we
found that the four most recent FFRs were accurate.

                                        EXHIBIT 4

               ACCURACY OF FEDERAL FINANCIAL REPORTS FOR

                            GRANT 2009-SB-B9-1238

 REPORT            REPORTING        EXPENDITURE EXPENDITURE DIFFERENCE
  NO .              PERIOD            PER FFR    PER RECORDS
   6           04/01/10 - 06/30/10      $ 18,878     $ 18,878      $ 0
   7           07/01/10 - 09/30/10        26,193       26,193         0
   8           10/01/10 - 12/31/10        18,623       18,623         0
   9           01/01/11 - 03/31/11           517          517         0
Source: Anchorage and OJP




       7
          In October of 2009, the financial reporting requirement for grantees transitioned
from quarterly Financial Status Reports to quarterly FFRs. Throughout this section, we refer
to both report formats as FFRs.

                                           - 17 ­
Progress Reports

       OJP requires JAG grant recipients to submit Progress Reports
quarterly. The Progress Reports are due 30 days after the close of each
quarter. We found that Anchorage submitted all of its Progress Reports on
time, except for the one representing the period ending June 30, 2010,
which was submitted 6 days late. The late Progress Report was delayed by
the implementation of a new OJP system, and all subsequent Progress
Reports were submitted timely. Therefore, we do not take exception to this
issue.

                                 EXHIBIT 5

                    PROGRESS REPORT HISTORY FOR

                         GRANT 2009-SD-B9-1238

 REPORT          REPORTING           REPORT        DATE                DAYS
  NO .             PERIOD           DUE DATE    SUBMITTED              LATE
   1         07/01/09 - 09/30/09    10/30/09  NOT REQUIRED             N/A
   2         10/01/09 - 12/31/09    01/30/10  NOT REQUIRED             N/A
   3         01/01/10 - 03/31/10    04/30/10     04/14/10               0
   4         04/01/10 - 06/30/10    07/30/10     08/05/10               6
   5         07/01/10 - 09/30/10    10/30/10     10/05/10               0
   6         10/01/10 - 12/31/10    01/30/11     01/12/11               0
   7         01/01/11 - 03/31/11    04/30/11     04/08/11               0
Source: Anchorage and OJP

      The OJP Financial Guide states that:

            . . . the funding recipient agrees to collect data appropriate
            for facilitating reporting requirements established by Public
            Law 103-62 for the Government Performance and Results
            Act. The funding recipient will ensure that valid and
            auditable source documentation is available to support all
            data collected for each performance measure specified in
            the program solicitation.

       We reviewed Anchorage’s Progress Reports to determine if they
accurately reflected grant activity and accomplishments. We found that
three of five Progress Reports submitted did not accurately reflect the status
and progress of the grant. Specifically, we found the Progress Reports for
the periods ending March 31 through September 30, 2010, did not
accurately reflect the correct amount of grant administration hours, and
printing and travel costs. Anchorage officials advised that discrepancies in
hours reported were caused by delays in recording overtime to the grant. As
discussed earlier in this report, Anchorage officials explained that the APD
has implemented, as of December 2011, a new timekeeping system which

                                     - 18 ­
they advise eliminates the delay in recording overtime hours to grants by
having employees input the time directly into Anchorage’s grant accounting
system when it is incurred.

      Additionally, questions considered applicable to the grant were marked
NR, meaning “not reported.” For example, Anchorage did not indicate in its
Progress Report crime statistics for any reporting period. Anchorage officials
explained that the discrepancies occurred because OJP’s questions in the
Progress Reports were not clear. Also, Anchorage officials stated that
questions related to crime statistics were answered with an NR because
Anchorage did not feel it could provide accurate answers that reflected the
long term results of its patrols. We recommend that OJP ensure Anchorage
establishes appropriate procedures and internal controls to make certain that
it submits accurate Progress Reports.

Recovery Act Reports

      Section 1512 of the Recovery Act requires recipients of Recovery Act
funds to submit quarterly reports. Anchorage’s initial report was due
October 10, 2009, with subsequent reports due 10 days after the close of
each quarter. We reviewed Anchorage’s Recovery Act reports beginning with
the period ending September 30, 2009, through the period ending
March 31, 2011. We found that six of the seven reports were submitted on
time and one report was submitted 3 days late. Given that the one late
report was only 3 days late, we did not take exception to this issue.

                                 EXHIBIT 6

                  RECOVERY ACT REPORT HISTORY FOR

                         GRANT 2009-SD-B9-1238

   REPORT                            REPORT       DATE              DAYS
    NO .       REPORTING PERIOD     DUE DATE    SUBMITTED           LATE
     1         07/01/09 - 09/30/09  10/10/09     10/01/09            0
     2         10/01/09 - 12/31/09  01/10/10     01/08/09            0
     3         01/01/10 - 03/31/10  04/10/10     04/05/10            0
     4         04/01/10 - 06/30/10  07/10/10     07/13/10            3
     5         07/01/10 - 09/30/10  10/10/10     10/08/10            0
     6         10/01/10 - 12/31/10  01/10/11     01/04/11            0
     7         01/01/11 - 03/31/11  04/10/11     04/05/11            0
Source: Anchorage and OJP

      According to OMB guidance, the Recovery Act reports aim to provide
transparency into the use of Recovery Act funds. The Recovery Act reports
are required to include the following information:



                                    - 19 ­
      •	 total amount of funds received and the amount of funds spent on
         projects and activities;

      •	 list of those projects and activities funded by name, including a
         description, completion status, and estimates on jobs created or
         retained; and

      •	 details of sub-awards and other payments.

       In the Recovery Act reports, the data pertaining to jobs created and
retained is reported in the form of Full Time Equivalents (FTE). 8 As shown
below, we reviewed the seven Recovery Act reports for accuracy, and found
that six of the seven contained inaccuracies as to the number of FTE’s
reported. Anchorage officials stated that inaccuracies reflected in Recovery
Act report numbers 3 through 6 were caused by timing differences.
Anchorage officials explained that the closure of Anchorage’s accounting
records for a reported month may not be complete in order to enable
Anchorage to report the correct number of FTEs within 10 days of the
quarter’s end, which is the deadline to submit the Recovery Act report. This
caused payroll transactions posted after the deadline to remain unreported
until reported in a subsequent reporting period.




      8
         According to OMB Memorandum 10-08, dated December 18, 2009, the formula for
FTE reporting divides the Total Number of Hours Worked and Funded by Recovery Act within
[the] Reporting Quarter by the Quarterly Hours in a Full-Time schedule. OMB Memorandum
10-08 describes the calculation of Quarterly Hours in a Full-Time Schedule as 520 hours
(2,080 hours annually divided by 4 quarters).

                                         - 20 ­
                                     EXHIBIT 7

              ACCURACY OF RECOVERY ACT REPORTS FOR

                         GRANT 2009-SD-B9-1238

                            NUMBER OF             NUMBER OF
                              HOURS                 HOURS
                           WORKED AND             WORKED AND
                            FUNDED PER            FUNDED PER
REPORT   REPORT PERIOD       QUARTER     FTE'S     QUARTER      FTE'S
                                                           9
 NO .   FROM - TO DATES     CALCULATED CALCULATED REPORTED    REPORTED
  1    07/01/09 - 09/30/09        2,773   5.33              0    0.00
  2    10/01/09 - 12/31/09          155   0.30         2,920     5.60
  3    01/01/10 - 03/31/10          511   0.98           468     0.90
  4    04/01/10 - 06/30/10          526   1.01           468     0.90
  5    07/01/10 - 09/30/10          538   1.03           559     1.07
  6    10/01/10 - 12/31/10          297   0.57           312     0.60
  7    01/01/11 - 03/31/11            0   0.00              0    0.00
Source: FederalReporting.gov and Anchorage


       The remaining two inaccurate reports (Recovery Act report numbers 1
and 2) represented the reporting periods ending September and December
of 2009. An Anchorage official stated that the inaccuracies contained within
these two reports were caused by delays in posting journal entries related to
the grant’s overtime expenses. The Anchorage official explained that hours
worked during the quarter ending September 30, 2009, were not reported
until the following reporting cycle because its grant account was not
internally setup in time to provide the necessary information. The grant
account could not be set up until the Anchorage Assembly approved the local
annual appropriation and Anchorage’s departments signed off on the
established budget. As a result, the initial recording of grant related
expenses was postponed until October 13, 2009. We recommend that OJP
ensure Anchorage establishes appropriate procedures and internal controls
to make certain that it submits accurate Recovery Act reports.

Additional Award Requirements

      We reviewed Anchorage’s compliance with additional grant
requirements, such as the grant’s solicitation material and special conditions
included as part of the grant’s award documentation. We found that
Anchorage generally complied with the additional grant requirements, except
for two instances of non-compliance.


       9
         In the second quarterly Recovery Act report that Anchorage submitted, Anchorage
included hours worked from the beginning of the grant in March 2009 through
September 30, 2009.

                                         - 21 ­
      According to the grant award documentation, Anchorage was required
to provide to OJP’s Office for Civil Rights an approved Equal Employment
Opportunity Plan. OJP’s Office of Civil Rights last approved an Equal
Employment Opportunity Plan for Anchorage on July 2, 2008. This Equal
Employment Opportunity Plan was in effect for 2 years, until July 2, 2010.
Since that time and as of June 13, 2012, OJP’s Office of Civil Rights did not
have a current Equal Employment Opportunity Plan for Anchorage. We
recommend that OJP ensure Anchorage complies with the award
requirement to provide to OJP’s Office of Civil Rights and maintain an
approved Equal Employment Opportunity Plan.

      Second, according to the grant solicitation and the OJP Financial
Guide, “federal funds must be used to supplement existing state and local
funds for program activities and must not replace those funds that have
been appropriated for the same purpose.” On June 22, 2009, Anchorage
agreed to adhere to the grant’s non-supplanting requirement that
accompanied the grant award documentation, which stated that “funds
received under this award . . . be used to increase the amounts of such
funds that would, in the absence of Federal funds, be made available for law
enforcement activities.”

       In our review of grant expenditures, we noted indications of
supplanting related to Anchorage’s Zero Tolerance Project. In 2008 and
2009, Anchorage used both local and federal funding to pay for police officer
overtime incurred in the Zero Tolerance Project. 10 As indicated in Exhibit 8,
between 2008 and 2009, overall police officer overtime expenditures in the
project decreased by 27 percent ($124,284 - $90,136). However, the
distribution of both local and federal funding in 2009 within the project was
not commensurate with 2008 levels, even after taking into consideration an
overall funding decrease of 27 percent in the Zero Tolerance Project.
Specifically, between the 2 years, the rate of reduction in local funding for
police officer overtime charged to the project was 63 percent – more than
double the rate of reduction in total overtime for the same project
(27 percent). However, there was a 38 percent increase in the utilization of
federal funding for the Project’s overtime expenses between the 2 years.
These allocations were indicators that Anchorage supplanted rather than
supplemented local funds.




       10
           The APD included overtime as a line item in its annual budget. Exhibit 9 provides
specific budgetary information regarding APD’s overtime.

                                           - 22 ­
                                         EXHIBIT 8

                   ANCHORAGE’S ZERO TOLERANCE PROJECT

            FUNDING DISTRIBUTION FOR POLICE OFFICER OVERTIME 11

                                                 DIFFERENCE BETWEEN
                                                   2008 AND 2009
                         2008        2009       AMOUNT      PERCENTAGE

Local Funding                $    81,013       $     30,222    <$ 50,791>          <63%>
                                  (65%)              (34%)

Federal Funding 12                43,271             59,914          16,643          38%
                                  (35%)              (66%)
Total Police                $ 124,284         $     90,136    <$ 34,148>           <27%>
Officer Overtime              (100%)               (100%)
   Source: Anchorage

       We discussed with Anchorage officials the issue of supplanting
regarding Anchorage’s Zero Tolerance Project who explained that Anchorage
experienced budgetary reductions beginning in 2009, which reduced the
amount of overtime that could be paid with local funding. On February 17,
2009, the Anchorage Assembly had a special meeting to discuss Anchorage’s
anticipated $17 million budget shortfall. 13 According to the minutes of the
meeting, there was a discussion pertaining to how all departments within
Anchorage, including the APD, would contribute in cost savings to bridge the
budget gap. According to APD Officials, the APD directed an across-the­
board cut in all unnecessary overtime hours.

      We compared APD's budgeted and actual, locally funded overtime
expenses for FYs 2007 through 2010. As illustrated in Exhibit 9, APD’s
actual overtime expenses decreased significantly from 2007 to 2010.

       11
          The overtime amounts included in Exhibit 8 do not include corresponding fringe
benefit charges. For example, for the $50,791 difference in locally funded overtime between
2008 and 2009, there was $13,738 in associated fringe benefit charges (totaling $64,529).
       12
           In 2008, the source of the federal funding for police officer overtime in Anchorage’s
Zero Tolerance Project was an OJP Weed and Seed grant. In 2009, the source of the federal
funding was OJPs’ Recovery Act JAG grant. The Weed and Seed Program is a comprehensive,
multi-disciplinary approach to combating violent crime, drug use, and gang activity in high
crime neighborhoods. The goal is to “weed out” violence and drug activity in high crime
neighborhoods and then to “seed” the sites with a wide range of crime and drug prevention
programs, human service resources, and neighborhood restoration activities to prevent crime
from reoccurring.
       13
          The Anchorage Assembly is Anchorage's legislative body that is responsible for
setting Municipal policy through the enactment of laws (ordinances) and adoption of
resolutions. Besides enacting laws, the Assembly approves the Municipal and School Board
budgets, appropriates all money, awards contracts over $100,000 through the competitive
bid process, and confirms all appointments to Municipal boards and commissions.

                                            - 23 ­
However, APD’s overtime budget had a different trajectory in that the
overtime budget increased between 2007 and 2009, then in 2010, it
decreased slightly.

                                                    EXHIBIT 9

                                APD’S BUDGETED AND ACTUAL

                             LOCALLY FUNDED OVERTIME EXPENSES

                                      FYs 2007 to 2010


                $7,000,000

                $6,000,000          $6,019,225
                                                 $5,118,414
                $5,000,000                                                                           Actual Overtime
                                                                     $4,240,000                      Spending at APD
                                                                                        $3,842,001
  Percentages




                $4,000,000
                                                 $4,100,000
                                                                                                     Budgeted
                $3,000,000                                                              $3,173,932
                                                                     3,768,565                       Overtime
                                    $2,707,270
                                                                                                     Spending at APD
                $2,000,000

                $1,000,000

                       $-
                             2007            2008             2009               2010



Source: APD

      In Exhibit 10, we compared APD’s overall actual expenditures between
2008 and 2009 with APD’s overall actual overtime expenses and the total
overtime charges to Anchorage’s Zero Tolerance Project.

                                                  EXHIBIT 10

                    COMPARISON OF APD’S ACTUAL OVERALL EXPENDITURES,

                     OVERTIME, AND ZERO TOLERANCE PROJECT OVERTIME

                                    FYs 2008 AND 2009

                                                           DIFFERENCE BETWEEN
                                                             2008 AND 2009
                                     2008        2009      AMOUNT     PERCENTAGE
APD Overall Expenditures                 $79,829,773          $76,787,017 <$3,042,756>                       <4%>

APD Overall Overtime                         5,118,414           3,768,565                <1,349,849>       <26%>

APD Zero Tolerance
                                                 124,284                90,136                <34,148>      <27%>
Project Overtime
Source: Anchorage

                                                       - 24 ­
       Exhibits 9 and 10 illustrate that Anchorage’s 63 percent reduction in
locally funded overtime for its Zero Tolerance Project was above and beyond
any of Anchorage’s and APD’s other reductions in expenditures, including
specifically overtime. These comparisons reinforce the indication that
Anchorage supplanted rather than supplemented local funds when it shifted
the majority of the funding burden for overtime in its Zero Tolerance Project
to OJP’s Recovery Act JAG grant.

      In addition, we reviewed Anchorage's 2009 Comprehensive Annual
Financial Report and noted that APD had an unreserved ending fund balance
of approximately $1.5 million as of year-end 2009. The grant manager
explained that APD’s overall expenses in 2009 were less than its budget.
The $1.5 million surplus was transferred from APD’s unreserved fund
balance back to the municipality at year-end.

       As a result of our analysis, we questioned $64,529 in federal grant
funds that Anchorage spent on Zero Tolerance Project overtime expenditures
that appeared to supplant rather than supplement local funds. We also
recommend that OJP ensure Anchorage complies with the award
requirement to properly utilize grant funds to supplement, and not replace,
local funds for grant-related activities.

Program Performance and Accomplishments

      According to the grant application, the goals and objectives for
Anchorage’s Recovery Act JAG grant included: (1) the rehabilitation of APD’s
mobile data computer infrastructure system (Data Infrastructure Project),
(2) the funding of overtime for two patrol projects, and (3) the funding for a
Meth Coordinator position. In addition, the grant funded a prosecutor position
and the installation of a legal file tracking system. According to Anchorage’s
Grant Manager and our review of Anchorage’s accounting records in May of
2011, Anchorage had initiated its Data Infrastructure Project and completed
funding the Foot Patrol Project and Meth Coordinator position. Also,
Anchorage had initiated the installation of a legal file tracking system.
However, Anchorage had not filled the prosecutor position as of May 6, 2011.

      We determined that Anchorage was behind schedule on its Data
Infrastructure Project. In its grant application, Anchorage provided a timeline
for when it would begin and complete its mobile data computer infrastructure
system program. During our fieldwork, we noted that Anchorage was behind
schedule when compared to its timeline. Specifically, the mobile data
computer infrastructure system program was supposed to start in the fourth
quarter of 2009, but actually it began in the second quarter of 2011.
Anchorage officials expressed assurances that they are capable of completing

                                    - 25 ­
the remaining objectives by the close of the grant period. Anchorage has until
the grant end date of February 28, 2013, to complete all grant activities and
achieve its objectives.

      According to the grant solicitation material, Anchorage was required to
establish performance measurements in order to gauge its progress in
achieving its goals and objectives. These performance measures were
included in Anchorage’s grant application, and it consisted of the following:

     1.	 Local Initiatives Implemented,
     2.	 Cost Savings (man hours) as a result of new systems

         implemented,

     3.	 Number of overtime hours paid with JAG funds,
     4.	 Percent of Units that report improved efficiency,
     5.	 Percent of Units that report increased program quality,
     6.	 Amount of funds expended on equipment or supplies,
     7.	 Change in reported crime rates in a community,
     8.	 Number of prevention program meetings,
     9.	 Grant Program Reporting,
     10. Recovery Act: Preserving Jobs, and
     11. Recovery Act: Jobs Created.

      Based on our review of supporting documentation, we found that
Anchorage maintained performance measurement data for performance
measures 3, 6, 7, 10, and 11, but did not gather or maintain data for the
remaining 6 performance measures. Anchorage officials stated that its
progress in achieving grant goals and objectives is reported to OJP based on
the Grant Manager’s opinion and observations. We recommend that OJP
ensure Anchorage collects and maintains performance measurement data with
corresponding support on its efforts to achieve the grant goals and objectives.

Conclusion

      Overall, we found non-personnel grant-related expenditures were
accurate, reasonable, and properly classified. Additionally, Anchorage’s
oversight of contractors appeared adequate and accurate FFRs were
submitted in a timely manner. Anchorage’s review of contractors’
performance appeared adequate to satisfactorily evaluate the contractors’
adherence to the requirements of the contracts.

      However, we noted internal control weaknesses that resulted in
ineffective safeguarding of assets, inadequate support for labor charges, and
inaccurate recording of grant related overtime. Also, we identified
inadequately supported payroll expenses totaling $83,774 and overtime and

                                    - 26 ­
fringe benefit expenses totaling $1,484. Anchorage’s non-financial grant
reports were inaccurate, including errors in three Progress Reports and six
quarterly Recovery Act reports. We also identified indications that
Anchorage used grant funds to replace, rather than supplement, local funds
for grant-related activities. As a result, we questioned $64,529 as
unallowable overtime and associated fringe benefits costs. Finally,
Anchorage also did not collect and maintain adequate data relevant to grant
performance measures, and it did not comply with two award requirements.

Recommendations

     We recommend that OJP:

      1.	   Ensure that Anchorage strengthens its internal controls to make
            certain that asset recording and inventory duties are adequately
            segregated and grant-related assets are adequately
            safeguarded.

      2.	   Ensure that Anchorage strengthens its internal controls to make
            certain its employees and respective supervisors properly certify
            the time that is charged to the grant.

      3.	   Ensure that Anchorage strengthens its allocation procedures to
            make certain that overtime expenditures are accurately, and in a
            timely manner, charged to the grant.

      4.	   Remedy $83,774 in payroll expenditures that were inadequately
            supported.

      5.	   Ensure Anchorage maintains adequate support for its federally
            grant-funded employees’ payroll expenses.

      6.	   Ensure Anchorage establishes a process to accurately record
            grant-related overtime costs in its accounting system.

      7.	   Remedy $1,484 in fringe benefit charges that were inaccurately
            recorded.

      8.	   Ensure that Anchorage establishes appropriate procedures and
            internal controls to make certain that fringe benefit expenses are
            accurately recorded in its accounting system.




                                    - 27 ­
 9.	   Ensure that Anchorage establishes appropriate procedures and
       internal controls to make certain that it submits accurate
       Progress Reports and Recovery Act reports.

10.	   Ensure Anchorage complies with the award requirement to
       provide to OJP’s Office of Civil Rights and maintain an approved
       Equal Employment Opportunity Plan.

11.	   Remedy $64,529 in federal grant funds that Anchorage spent on
       Zero Tolerance Project overtime expenditures that appeared to
       supplant rather than supplement local funds.

12.	   Ensure Anchorage complies with the award requirement to
       properly utilize grant funds to supplement, and not replace, local
       funds for grant-related activities.

13.	   Ensure Anchorage collects and maintains performance
       measurement data with corresponding support on its efforts to
       achieve the grant goals and objectives.




                               - 28 ­
                                                                 APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether costs claimed
under Grant 2009-SB-B9-1238 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, indirect costs, matching, budget management, and post
end date activity were not applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions.

       Unless otherwise specified, our audit covered, but was not limited to,
activities that occurred between the start of Grant 2009-SB-B9-1238 in
March 1, 2009, through the start of our audit fieldwork on May 1, 2011.
Further, the criteria we audited against are contained in the OJP Financial
Guide, Code of Federal Regulations, OMB Circulars, the Recovery Act, and
specific program guidance, such as award documents and the grant
solicitation.

      We did not test internal controls for Anchorage taken as a whole or
specifically for the grant program administered by Anchorage. An
independent Certified Public Accountant conducted an audit of Anchorage's
financial statements. The results of this audit were reported in the Single
Audit Report that accompanied the Independent Auditors’ Report for the
year ending December 31, 2010. The Single Audit Report was prepared
under the provisions of OMB Circular A-133. We reviewed the independent
auditor’s assessment to identify control weaknesses and significant
noncompliance issues related to Anchorage or the federal programs it was
administering, and assessed the risks of those findings on our audit.



                                    - 29 ­
     Our testing was conducted by judgmentally selecting for analysis a
sample of payroll expenditures from the grant we audited.
Judgmental sampling design was applied to obtain broad exposure to
numerous facets of the reimbursements reviewed. This non-statistical
sample design does not allow projection of the test results to all payroll
expenditures.

       In addition, we performed limited testing of source documents to
assess the accuracy of reimbursement requests and FFRs. However, we did
not test the reliability of the financial management system as a whole, nor
did we place reliance on computerized data or systems in determining
whether the transactions we tested were allowable, supported, and in
accordance with applicable laws, regulations, and guidelines. We also
performed limited testing of information obtained from OJP’s GMS and found
no discrepancies. We have reasonable confidence in the GMS data for the
purposes of our audit. However, the OIG has not performed tests of the
GMS system specifically, and we therefore cannot definitively attest to the
reliability of GMS data.




                                    - 30 ­
                                                                         APPENDIX II

            SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:
                                                                         AMOUNT       PAGE
Unsupported Costs:

      Unsupported Payroll & Overtime Expenditures                    $    83,531       12

      Unsupported Overtime Expenditures                              $        243      13

             Total Unsupported Costs                                 $    83,774


Unallowable Costs:

      Fringe Benefits Charges                                        $     1,484       14

      Supplanted Overtime and Fringe Costs                           $    64,529       25

             Total Unallowable Costs                                 $    66,013

TOTAL QUESTIONED COSTS:                                              $ 149,787


Less: Adjustment to match total drawdowns                                  < $0>

Less: Duplication1416                                               ___<$204>

TOTAL DOLLAR RELATED FINDINGS                                       $ 149,583




Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the
time of the audit, or are unnecessary or unreasonable. Questioned costs may be
remedied by offset, waiver, recovery of funds, or the provision of supporting
documentation.



      14
          Some costs were questioned for more than one reason. Net questioned costs
exclude the duplicate amount.

                                         - 31 ­
                                                                                                       APPENDIX III


                                    GRANTEE RESPONSE


                     MUNICIPALITY OF ANCHORAGE

--- @ ---
    {~
    W
Office of the Municipal Manager                                                                      Phone: 907·343-7110
                                                                                                           FAX: 907-343-7140
                                                 Mayor Dan Sullivan



      October 10, 2012

      David J. Gaschke
      Regional Audit Manager
      San Francisco Regional Audit Office
      Office of the Inspector General
      US Department of Justice
      1200 Bayhill Drive
      Suite 201
      San Bruno, CA 94066


      Subject: 2oo9-$B-B9-1238 DIG Audit Response


      Dear Mr. Gaschke:


      The following is in response to the draft audit report issued September 19, 2012 in regards to the 13
      recommendations on 2009 ARRA Jag Grant Program, grant n umber 2009-5B-89- 1238, for the
      Municipality of Anchorage. As requested, we have listed our responses to each recommendation in the
      order in wh ich they appeared on pages 27-28 of the draft report .


      Recommendation #1 - Ensure that Anchorage strengthens its internal controls to make certain that
      asset recording and inventory duties are adequately segregated and grant - related assets are
      adequately safeguarded.


      Response to Recommendation #1 - New internal controls will be addressed in new Financial System,
      SAP, currently set to be deployed in January of 2013. The asset module will enable new protocols that
      add multiple levels between asset purchase, receipt, recording and inventory accounting processes.


      Recommendation #2 - Ensure that Anchorage strengthens its internal controls to make certain its
      employees and respective supervisors properly certify the time that is charged to the grant.


      Response to Recommendation #2 - At the time of audit, the Anchorage Police Oepartment (APO) was
      still on a paper exception system. APO has since implemented the Telestaff system and has been
      utilizing it for the past year to ensure that all normal duty and overtime are properly certified.




                     P.O. Box 196650 .;. Anchorage, Alaska 99519·6650 .;. h«p:!lwww.muni,org



                                                        - 32 ­
Recommendation #3 - Ensure that Anchorage strengthens its allocation procedures to make certain
that overtime expenditures are accurately and in a timely manner charged to the grant.


Response to Recommendation #3 - Through the implementation of the new Municipal financial system,
SAP, and the Te lestaff/Kronos interface schedu led for January of 2013, all applicable time w ill report to
the grant during the same pay period in which it was performed . Currently, the process is manual and
labo r intensive .


Recommendation #4 - Remedy $83,774 in payroll expenditures that were inadequately supported .


Response to Recommendation #4 - The Municipality concurs with this finding and will remedy the
$83,774 in inadequately supported payroll expenditures.


Recommendation #5 - Ensure Anchorage maintains adequate support for its federally grant-funded
employees' payroll expenses.


Response to Recommendation #5 - APO is cu rrently utiliz ing Telestaff and other municipal employees
are utilizing Kronos to ensure compliance with federal requirements of payroll reporting.


Recommendation #6 - Ensure Anchorage establishes a process to accurately record grant-related
overtime costs in its accounting system.


Response to Recommendation #6 - Through the implementation of the new municipal financial system,
SAP, and the Telestaff/Kronos interface scheduled for Ja nuary of 2013, all applicable time will report to
the grant during the same pay period in which it was performed. The departme nt is currently utilizing
Te lestaff to process, cert ify and report time and then a manual process to record to the appropriate
grant.


Recommendation #7 - Remedy $1,484 in fringe benefit charges that were inaccurately recorded.


Response to Recommendation #7 - The Municipality concurs with this finding and will remedy the
miscalculation of the fringe benefits in the amount of $1,484.


Recommendation #8 - Ensure Anchorage establishes appropriate procedures and inte rnal controls to
make certain that fringe benefit expenses are accurately recorded in its accounting system.


Response to Recommendation #8 - The Municipality concurs with this finding and has added an
additional review to the manual process currently ut ilized to account for time in the correct grants to
ensure proper calculations are charged. By January 2013, the fringe benefit calculation and charges will
become automated w ith the implementation of the new municipal financial system, SAP, and the
Telestaff/Kronos interface.




                                               - 33 ­
Recommendation #9 - Ensure that Anchorage establishes appropriate procedures and internal controls
to make certain that it submits accurate Progress Reports and Recovery Act reports,


Response to Recommendation #9 - The Recovery Act reports submitted were true and accurate to the
general ledger at the time of reporting. Due to the timing between when the Recovery Act reports are
due and the payroll processing cycles, it is possible for some charges to post after the report is
submitted . The additional hours were reflected in the following reporting cycle calculations. The
additional charges were reflected in the FFR' s submitted for the reporting quarter. The Mun icipa lity is
currently implementing a new payroll and ERP system. The combination of the two systems should be
able to ensure an accurate accounting of t ime for the FTE calculation.


Recommendation #10 - Ensure Anchorage complies with the award requirement to provide to OJP's
Office of Civil Rights and maintain an approved Equal Employment Opportunity Plan.


Response to Recommendation #10 - The most current Equal Employment Opportun ity Plan (EEOP)
from 2007 was provided to the auditors when they were onsite in May 2011. A Workforce Analysis
Report for January 2010 through December 2010 has been processed, however a formal EEOP report
has not yet been completed.


Recommendation #11 - Remedy $64,529 in federal grant funds that Anchorage spent on Zero Tolerance
Project overtime expenditures that appeared to supplant rather than supplement local funds.


Response to Recommendation #11 - Although the Municipality does not concur that the grant funds
supplanted the Zero Tolerance Project as the decision to utilize the grant funds came after the budget
was passed and the program funding was eliminated . The grant funds allowed the program to continue
with minimal impact to the community . We will remedy the $64,529 in federal grant funds that were
spent in support of the Project.


Recommendation #12 - Ensure Anchorage complies with the award requirement to properly utilize
grant funds to supplement, and not replace, local funds for grant-related activities.


Response to Recommendation #12 - APD understands the non-supplanting requirement and has
always designed its grant projects to ensure compliance. In recent years, Anchorage has experienced
annual operating budget difficulties due to reduced return on investments and other local financial
issues. In the past few years, the Department' s operating budget has been dramatically reduced
resulting in the termination or reduction of some special projects and services. Additionally, the
Department has been asked to further reduce and lapse any available operating funding at the end of
each year. This has made it difficult to temporarily restore fund ing to viable grant proj ects w ithout the
appearance of impropriety. The Department will continue to be aware of the non-supplanting
requirement and ensure a certain balance is maintained to supplement local funds in all its grant related
activities.




                                               - 34 ­
Recommendation #13 - Ensure Anchorage col lects and maintains performance measurement data with
correspond ing support on its efforts to achieve the grant goals and objectives.


Response to Recommendation #13 - The Performance Management Tool at its initiation, was a bulky
and cumbersome system with virtual ly no available support that resulted in early problems with
recording accurate performance information. Further, activities have been reported in accordance with
the general ledger to most accurately reflect financial reporting, see answer #9. This process will be
much more efficient with the implementation of the new SAP financial system in January 2013.



Sincere ly,




Mark Mew, Police Chief
Acting Municipal Manager




                                               - 35 ­
                     Municipality of Anchorage
                                   MEMORANDUM




DATE:              October 3, 2012

TO:                Distribution


FROM:              George J. Vaka lis,

SUBJECT:           Acting Assignmentn-emporary Signature Authority

During my absence from October 6'h through October 11'h, Chief Mark Mew and
Deputy Chief Steve Smith will assume the additional responsibilities of Municipal
Manager and signature authority for all documents relating to this position on the
days specified below.

October 6-7, 2012 - Deputy Chief Steve Smith, please call 786-8595 during office
hours and 727-8447 after office hours.

October 8-11, 2012, Chief Mark, please ca ll 786-8595 during office hours and 632-
2562 after office hours.




Distribution:
   Mayor
   Chief Fiscal Officer
   Municipal Attorney
   Employee Relations
   Office of Management & Budget Director
   All Departments under MMO
   Municipal Clerk




                                         - 36 ­
                                                                                      APPENDIX IV


        DEPARTMENT OF JUSTICE RESPONSE



                                                 U.S. Department of Justice

                                                 Office of Justice Programs

                                                Office ofAudit. A.~sessment. and Management



                                                W""hi~""   D.C. 2(lHI

   OCr 19 2012


MEMORANDUM TO:               David I. Gaschke
                             Regional Audit Manager
                             San Francisro Regional Audit Office
                             Office of the Inspector General

FROM:                        Maurcen.L\. AI~lme.be~~ .
                             Director y ~ ()

SUBJECT:                     Response to the Draft Audit Report, Audit ofthe Office of Justice
                             Programs. Edward Byrne Memorial Justice Assistance Granl
                             Awarded 10 the Municipality of Anchorage, Alaska

This memorandum is in response to your correspondence, dated September 19. 20 12.
transmitting the subject draft audit report for the Municipality of Anchorage. Alaska
(Anchorage). We consider the subject report resolved and request written acceptance of this
action from your office.

The draft audit report contains J3 recommendations and S149,583 in questioned rosts. The
following is the Office of Justice Programs' (OIP) analysis or lbe draft audit report
rCCQmmendations. For ea:;c of review, the recommendations are restated in bold and are
followed by our response.

I. We recommend that O JP ensu re t ha t Anchorage st r engthens its inte r nal controls to
   make certain that asset recording and inventory du ties are adequately segregated, a nd
   grant- related assets are adeq uately safeguarded.

   OIP agrees with the recommendation. We will coordinate wi tb Anchorage to obtain a copy
   of procedures implemented to ensure that a~sel recording and inventory d uties arc adequately
   segregated, and grant-related asset~ are adeq uately safeguarded.




                                           - 37 ­
2. We r ecommend that OJP ensure that Anchorage strengtheus its iuternal controls to
   make certain its employees and res pective supervisors properly certify the time that is
   charged to the gra nt.

   OJP agrees wi th the recommendation. We will coordinate with Anchorage to obtain a oopy
   of procedures implemented to ensure thai employees and r¢spective supervisors properly
   certifY the time that is charged to the grant.

3. We recommend that O.lP ens ure that Anchorage strengthens its a lloca tion procedu res
   to make certain that overtime expenditures are accurately, and in a iimciy mann er,
   cha rged to t he grant.

   OJP agrees with the reoommcndation. We will coordinate with Anchorage to obtain a copy
   of procedures implemented to ensure that overtime expenditures are accurately and timely
   charged to the grant.

4. We recommend that OJP remedy $83,774 in payroll expenditures that were inadequately
   supported.

   OJ P agrees with the recommendation. We will coordinate with Anchorage to remedy the
   $83,774 in questioned co~ts, related to payroll expenditures that were inadequately
   supportcd. If adequate supporting docUlllentation cannot be provided, we will request that
   Anc horage return the funds to the Department of Justice (DOJ). adj ust thei r accounting
   records to remove the costs, and submit a revised Federal Financial Report (I:FR) for Grant
   NUlllber 2009-SB-B9-1238.

5. We recommend that OJI> ensure that Anchorage mainta ins adequate support for its
   F ederally gran I-funded employees' payroll expenses.

   OJP agrees with the recommendation. We will coordinate with AnChorage to obtain a copy
   of procedures implemented to ensure adequate support for its Federally grant-fundexl
   employees' payro ll expenses is maintained.

6. We recommend tbat OJP ensure that Anchora ge establi~hes a process to accurately
   record grant-related overtime costs in its accounting system.

   Ol P agrees with the recommendation. We will coordinate with Anchorage to obtain a copy
   of procedures implemented to accurately record grant-related overtimc costs in its !lccounting
   system.




                                           - 38 ­
7. We recommend that OJP remedy the Sl,484 in frin ge benefit charges that were
   inaccurately recorded.

   O)P agrees with the recommendation. We will coordinate wi th Anchorage to remedy the
   $1,484 in questioned costs, related to fri nge benefits costs that wert inaccurately recorded. If
   adequate docrunentation cannot be provided, we will request tbat Anchorage return the funds
   to the 001, adjust their accounti ng records to remove the wsts, and submit a revised FFR for
   Grant N umber 2009-SB-B9-1238.

8. \Ve recommend tbat OJP ensure that Anchorage cstablbhcs appropriate proccdures a nd
   internal controls to make certain tbat fringe benefit expenses are accurately recorded in its
   accounting systcm.

   OlP agrees with the recommendation. We will coordinate with Anchorage to obtain a copy
   of procedures implemented to ensw-e that fringe benefit expenses are accuratel y recorded in its
   accounting system.

9, We r«ommend that OJP cnsure that Anchorage establishes appropriate procedures
   and internal controls to ma ke certain that it s ubmits accurate progress reports and
   Recovery Act reports.

   OlP agrees with the recommendation. We will wordinate with Anchorage to obtain a copy
   of procedures implemented to ensure it submits accurate progress reports and Recovery Act
   reports.

J O. We recommend that OJP ensure tha t Anchorage complies with the award requirement
     to provide to OJP's Office of Civil Rights, and maintain, an approved Equal
     Employment Opportunity Plan.

   OJP agrees with the recommendation. We will coordinate with Anchorage to ensure that
   they provide a copy ofan approved Equal Employment Opportunity (EEO) Plan to OJP's
   O ffice of Civil Rights. ro addition, we will coordinate with Anchorage to obtain a copy of
   procedures implemented to ensure that approved EEO Plans are maintained and timely
   submitted.

11. We recommend that OJP remedy the $64,529 in Federal grant funds that Anchorage
    ~ pent on Zero Tolerance Project overtime expenditurC5 that appeared to supplant,
    ratber than s upplement, local funds.

   OJP agrees with the recommendation. We will coordinate with Anchorage to remedy the
   $64,529 in questioned costs, related to Federal grant funds spent on Zero Tolerance Projcct
   overtime expenditures that appeared to supplant, rather than su pplement, local fund~ . If
   adequate documentation C8lUlot be provided to support these costs, we will request that
   Anchorage return the funds to thc DO), adjust their accounting records to remove the costs,
   and submit a revised FFR for Grant Numbe r 2009-S8-B9-l238.




                                            - 39 ­
12. We recommend that OJP ensure that Anchorage complies with the award requiremcnt
    to properly utilize Federal grant funds to supplement, and not replace, local funds for
    grant~relat~d activities.


      OJP agrees with the recommendation. We will coordinate with Anchorage to obtain a copy
      of procedures implemented to ensure that Federal grant funds are used to supplement. and
      not rcplace, local funds for grant~related activities_

13. We recommend that OJP ensure that Anchorage collects and maintains performance
    measurement data, with corresponding support on its efforts to achieve the grant goals
    and objectives.

      OJP agrees with thc recommendation. We will coordinatc with Anchorage to obtain a copy
      of procedures implemented to ensure the collection and maintenance of performance
      measurement data, with corresponding support on its efforts to achieve the grant goals and
      objectives_

We appreciate the opportunity to review and comment on the draft audit report. If you have any
q uestions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616~2936.

cc:      Jeffery A. HaleY
         Deputy Director, Audit and Review Division
         Office of Audit, Assessment, and Management

         Tracey Trautman
         Depnty Director for Programs
         Bureau of Justice Assistance

         Amanda loCicero
         Audit Liaison
         Bureau of Justice Assistance

         Barry Roberts
         Grant Program Specialist
         Bureau of Justice Assistance

          Louise Duhamel, Ph.D.
          Acting Assistant Director, Audit Liaison Group
          Internal Review and Evaluation Office
          Justice Management Division

          OJP Executive Secretariat
          Control Number 20121555




                                             - 40 ­
                                                                APPENDIX V

              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


       The OIG provided a draft of this audit report to Anchorage and OJP.
Anchorage’s and OJP’s responses are incorporated in appendices III and IV
of this report, respectively. The following provides the OIG analysis of the
responses and summary of actions necessary to close the report.

Recommendation Number:

1.	   Resolved. OJP concurred with our recommendation to ensure that
      Anchorage strengthen its internal controls to make certain that asset
      recording and inventory duties are adequately segregated, and grant-
      related assets are adequately safeguarded. OJP stated in its response
      that it will coordinate with Anchorage to obtain a copy of the
      procedures implemented to ensure that asset recording and inventory
      duties are adequately segregated, and grant related assets are
      adequately safeguarded. Anchorage stated in its response that it will
      deploy a new financial system in January 2013 that will address new
      internal controls. The asset module of the new financial system will
      provide new protocols related to asset purchases, receipts, recording,
      and inventory accounting.

      This recommendation can be closed when we receive: (1) evidence
      that Anchorage’s new financial system has been deployed; and (2) a
      description of how Anchorage’s new financial system will address the
      internal control deficiencies we identified, including any new
      procedures for asset recording, inventory duties, and safeguarding of
      grant related assets.

2.	   Resolved. OJP concurred with our recommendation to ensure that
      Anchorage strengthens its internal controls to make certain its
      employees and respective supervisors properly certify the time that is
      charged to the grant. OJP stated in its response that it will coordinate
      with Anchorage to obtain a copy of procedures implemented to ensure
      that employees and respective supervisors properly certify time
      charged to the grant. Anchorage stated in its response that
      subsequent to our fieldwork it implemented a new timekeeping system
      that ensures all normal duty and overtime is properly certified.



                                    - 41 ­
      This recommendation can be closed when we receive: (1) evidence
      confirming Anchorage’s implementation of its new timekeeping system
      and a description of how it will ensure that all normal duty and
      overtime is properly certified, and (2) Anchorage’s new procedures
      that ensure employees and respective supervisors properly certify time
      charged to the grant.

3.	   Resolved. OJP concurred with our recommendation to ensure that
      Anchorage strengthens its allocation procedures to make certain that
      overtime expenditures are accurately, and in a timely manner, charged
      to the grant. OJP stated in its response that it will coordinate with
      Anchorage to obtain a copy of procedures implemented to ensure that
      overtime expenditures are accurately and timely charged to the grant.
      Anchorage stated in its response that it will implement a new financial
      system in January 2013, which will enable time to be reported to the
      grant in the same pay period in which the work was performed.

      This recommendation can be closed when we receive: (1) evidence
      that Anchorage’s new financial system has been deployed and a
      description of how Anchorage’s new financial system will ensure that
      overtime expenditures are accurately and timely charged to the grant;
      and (2) Anchorage’s new procedures that will ensure that overtime
      expenditures are accurately and timely charged to the grant.

4.	   Resolved. Both OJP and Anchorage concurred with our
      recommendation to remedy $83,774 in payroll expenditures that were
      inadequately supported. OJP stated that it will coordinate with
      Anchorage to remedy the $83,774 in questioned costs. If Anchorage
      cannot provide adequate supporting documentation, OJP will request
      that Anchorage return the funds to the Department of Justice, adjust
      its accounting records to remove the costs, and submit a revised FFR.

      This recommendation can be closed when OJP provides us: (1) its
      plan for how it will remedy the questioned costs, and (2) evidence that
      Anchorage has remedied the $83,774 of questioned costs.

5.	   Resolved. OJP concurred with our recommendation to ensure that
      Anchorage maintains adequate support for its federally grant-funded
      employees’ payroll expenses. OJP stated in its response that it will
      coordinate with Anchorage to obtain a copy of procedures
      implemented that ensure adequate support is maintained for its
      federally grant-funded employees’ payroll expenses. Anchorage
      advised that through its use of two timekeeping systems, Kronos and


                                   - 42 ­
      Telestaff, it is able to ensure compliance with federal requirements for
      payroll reporting.

      This recommendation can be closed when we receive: (1) Anchorage’s
      new procedures to ensure adequate support is maintained for its
      federally grant-funded employees’ payroll expenses, and (2) evidence
      that this Telestaff system has been deployed and a description of how
      it will ensure that adequate support is maintained.

6.	   Resolved. OJP concurred with our recommendation to ensure that
      Anchorage establishes a process to accurately record grant-related
      overtime costs in its accounting system. OJP stated in its response
      that it will coordinate with Anchorage to obtain a copy of procedures
      that have been implemented to accurately record grant-related
      overtime costs in its accounting system. Anchorage stated that it will
      resolve this issue through the implementation of its new financial
      system in January 2013, which will enable time to be reported to the
      grant within the same pay period in which the work is performed.

      This recommendation can be closed when we receive Anchorage’s new
      procedures that have been implemented to accurately record grant-
      related overtime costs in its accounting system.

7.	   Resolved. Both OJP and Anchorage concurred with our
      recommendation to remedy $1,484 in fringe benefit charges that were
      inaccurately recorded. OJP stated in its response that it will coordinate
      with Anchorage to remedy the $1,484 in fringe benefit charges that
      were inaccurately recorded. If Anchorage cannot provide adequate
      documentation, OJP will request that Anchorage return the funds to
      the Department of Justice, adjust its accounting records to remove the
      costs, and submit a revised FFR.

      This recommendation can be closed when OJP provides us: (1) its
      plan for how it will remedy the questioned costs, and (2) evidence that
      Anchorage has remedied the $1,484 of questioned costs.

8.	   Resolved. Both OJP and Anchorage concurred with our
      recommendation that Anchorage establish appropriate procedures and
      internal controls to make certain that fringe benefit expenses are
      accurately recorded in its accounting system. OJP stated in its
      response that it will coordinate with Anchorage to obtain a copy of
      procedures implemented to ensure that fringe benefit expenses are
      accurately recorded in its accounting system. Anchorage stated that it
      has added an additional level of review to the current process and it

                                    - 43 ­
      will implement a new financial system that will automate the process
      of charging and calculating fringe benefit expenses.

      This recommendation can be closed when we receive Anchorage’s new
      procedures that it implemented to ensure fringe benefit expenses are
      accurately recorded in its accounting system, including the additional
      level of review added to the current process.

9.	   Resolved. OJP concurred with our recommendation to ensure that
      Anchorage establishes appropriate procedures and internal controls to
      make certain that it submits accurate progress reports and Recovery
      Act reports. OJP stated in its response that it will coordinate with
      Anchorage to obtain a copy of procedures implemented to ensure it
      submits accurate progress reports and Recovery Act reports.

      Anchorage stated that with respect to Recovery Act reports, the
      Municipality is currently implementing a new payroll and Enterprise
      Resource Planning (ERP) system, which it believes will ensure an
      accurate accounting of time for the Full Time Equivalent calculation.
      Anchorage further advised that, the hours not initially reported were
      reported in later reporting periods and maintains that the Recovery Act
      reports submitted were true and accurate to the general ledger at the
      time of reporting. As discussed in our report we found hours worked
      which were not recorded to the grant specific account for the period in
      which the work was performed. This resulted in erroneous reporting
      because the hours reported did not agree to the actual hours worked
      and funded for the period. Section 1512 of the Recovery Act requires
      that recipients of Recovery Act funds submit a report which includes
      the amount of recovery funds received that were expended or
      obligated to projects or activities. We understand this to mean that all
      funds expended within a given period must be reported within the
      same period. We have added language to the Recovery Act section of
      our report to reflect that amounts not initially reported were included
      in subsequent periods. However, as discussed in the Recovery Act
      section of our report, this contributed to discrepancies between the
      hours worked and hours reported for subsequent periods.

      In its response, Anchorage did not specifically address our
      recommendation regarding accuracy of progress reports. As discussed
      in the Progress Reports section of our report, the progress reports
      submitted by Anchorage contained inaccuracies. Therefore, we
      recommended that OJP ensure that Anchorage establishes appropriate
      procedures and internal controls to make certain that it submits
      accurate progress reports.

                                    - 44 ­
       This recommendation can be closed when we receive procedures
       implemented to ensure that Anchorage submits accurate progress
       reports and Recovery Act reports.

10.	   Resolved. OJP concurred with our recommendation to ensure that
       Anchorage complies with the award requirement to provide an
       approved Equal Employment Opportunity (EEO) Plan to OJP’s Office of
       Civil Rights. OJP stated in its response that it will coordinate with
       Anchorage to: (1) ensure that Anchorage provides a copy of an
       approved EEO Plan to OJP’s Office of Civil Rights, and (2) obtain a copy
       of procedures implemented to ensure that approved EEO Plans are
       maintained and timely submitted. Anchorage stated that its most
       current EEO Plan from 2007 plan was provided to the OIG. As
       discussed in the Additional Award Requirements section of our report,
       we found that a more recent EEO plan from 2008, which was in effect
       through July 2, 2010. Additionally, we confirmed with OJP that OJP’s
       Office of Civil Rights did not receive a more recent EEO Plan from
       Anchorage to cover dates subsequent to the expiration of the 2008
       plan.

       This recommendation can be closed when we receive: (1) evidence
       that an approved EEO Plan has been submitted to OJP’s Office of Civil
       Rights, and (2) a copy of procedures implemented to ensure that
       approved EEO Plans are maintained and timely submitted.

11.	   Resolved. OJP concurred with our recommendation to remedy the
       $64,529 in federal grant funds that Anchorage spent on Zero
       Tolerance Project overtime expenditures that appeared to supplant,
       rather than supplement, local funds. OJP stated in its response that it
       will coordinate with Anchorage to remedy the $64,529 in questioned
       costs. If Anchorage cannot provide adequate supporting
       documentation, OJP will request that Anchorage return the funds to
       the Department of Justice, adjust its accounting records to remove the
       costs, and submit a revised FFR.

       Anchorage stated that it did not concur with this finding and the
       related recommendation; however, Anchorage agreed to remedy the
       $64,529 in federal grant funds spent in support of the Zero Tolerance
       Project. Specifically, in its response, Anchorage stated that the
       decision to utilize the grant funds came after the budget was passed
       and the program funding was eliminated. Anchorage advised that the
       grant funds allowed the program to continue with minimal impact to
       the community.


                                     - 45 ­
       As stated in our report, between 2008 and 2009, Anchorage reduced
       its expenditures for police officer overtime on the Zero Tolerance
       Project by 63 percent. However, during this same time period,
       Anchorage utilized 38 percent more in federal funding for police officer
       overtime on the Zero Tolerance Project. Given this reduction in local
       funds spent on police officer overtime and increased reliance on
       federal funding for this overtime, we found indications that Anchorage
       supplanted rather than supplemented local funds. Therefore, we
       questioned $64,529 in federal grant funds that Anchorage spent on
       Zero Tolerance Project overtime. Even though Anchorage did not
       concur, it agreed to remedy the questioned costs.

       This recommendation can be closed when OJP provides us: (1) its
       plan for how it will remedy the questioned costs, and (2) evidence that
       Anchorage has remedied the $64,529 of questioned costs.

12.	   Resolved. OJP concurred with our recommendation to ensure that
       Anchorage complies with the award requirement to properly utilize
       federal grant funds to supplement, and not replace, local funds for
       grant-related activities. OJP stated in its response that it will
       coordinate with Anchorage to obtain a copy of procedures
       implemented to ensure that federal grant funds are used to
       supplement, and not replace, local funds for grant related activities.
       Anchorage stated that it understands the non-supplanting requirement
       and has always designed its grant projects to ensure compliance with
       the non-supplanting requirement. In recent years, Anchorage has
       experienced annual operating budget difficulties due to reduced return
       on investments and other local financial issues. Anchorage advised
       that these fiscal pressures generated budgetary reductions which
       made it difficult to temporarily restore funding to viable grant projects
       without the appearance of impropriety. Anchorage stated that it will
       continue to be cognizant of the non-supplanting requirement and
       ensure a certain balance is maintained to supplement local funds in all
       its grant related activities.

       This recommendation can be closed when we receive a copy of
       procedures implemented to ensure that federal grant funds are used to
       supplement, and not replace, local funds for grant related activities.

13.	   Resolved. OJP concurred with our recommendation to ensure that
       Anchorage collects and maintains performance measurement data,
       with corresponding support on its efforts to achieve the grant goals
       and objectives. OJP stated in its response that it will coordinate with
       Anchorage to obtain a copy of procedures implemented to ensure the

                                     - 46 ­
collection and maintenance of performance measurement data, with
corresponding support on its efforts to achieve the grant goals and
objectives. Anchorage stated that at its initiation, the Performance
Management Tool was a bulky and cumbersome system with virtually
no available support that resulted in early problems with recording
accurate performance information. Anchorage also stated that it
reported activities in accordance with the general ledger to most
accurately reflect financial reporting. Anchorage indicated that it
anticipates increased efficiency of performance reporting through the
implementation of a new financial system in January 2013. As
discussed in the Program Performance and Accomplishments section of
our report the Grant Manager reported progress in achieving grant
goals and objectives to OJP based on opinion and observations. Also,
in our review of supporting documentation, we found that Anchorage
did not gather or maintain data for 6 performance measures.

This recommendation can be closed when we receive: (1) Anchorage’s
new procedures to ensure the collection and maintenance of
performance measurement data, with corresponding support on its
efforts to achieve grant goals and objectives; and (2) evidence that
the new financial system has been deployed along with a description of
how it will ensure that adequate support is collected and maintained.




                             - 47 ­
